Supreme Court, U.S.
FILED

JAN 14 2021

WAIVER

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Benjamin Mario Soto

20-6858
AFSCME Union Council 5 Local 12181, et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Minnesota''Department of HUman Services,

0 I am a member of the Bar of the Supreme Court of the-United States.

0 I areriotiprcsently member of the Bar of this Court. ShOld mp?5isc5be requested, the response
will be filed-by a 8

menber.
i

Signature
Date. 1 /14/202,
(Type or pint) Name

y

Hillary Arlene Taylor, Assistant Attorney General
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Office of the Minnesota Attorney General

Address

445 Minnesota Street, Suite 1100

City & State

St. Paul, MN

Phone "(651)

757:1177

Zip
Email

55101

hillary.taylor@ag.state.mn.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO. SE. PLEASE INDICATE. BELOW_THE NAME(S) OF THE. RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Pea se Petitioner SOto; Jos Doris Hedatiytbuitiel for Respondent AFSCME
RECEIVED
JAN 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

